U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                            August 2010
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report,
the seventeenth since enactment of the legislation in October 2001,
summarizes the OIG’s Section 1001-related activities from January 1, 2010
through June 30, 2010.

I. INTRODUCTION

      The OIG is an independent entity within the DOJ that reports to both the
Attorney General and Congress. The OIG’s mission is to investigate allegations
of waste, fraud, and abuse in DOJ programs and personnel and to promote
economy and efficiency in DOJ operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Attorneys’
Offices, and other DOJ components. 1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division is responsible for independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division conducts program and
           management reviews that involve on-site inspection, statistical
           analysis, and other techniques to review Department programs and
           activities and make recommendations for improvement.

       •   Investigations Division is responsible for investigating allegations of
           bribery, fraud, abuse, civil rights violations, and violations of other
           criminal laws and administrative procedures that govern Department
           employees, contractors, and grantees.

       •   Oversight and Review Division blends the skills of attorneys,
           investigators, and program analysts to investigate or review high


       1  The OIG has authority to investigate allegations of misconduct by any Department
employee, except for allegations of misconduct "involving Department attorneys, investigators,
or law enforcement personnel, where the allegations relate to the exercise of the authority of an
attorney to investigate, litigate, or provide legal advice . . . . " See 5 U.S.C. App. 3 § 8E(b)(3).


Office of the Inspector General, U.S. Department of Justice                             Page 1
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division provides planning, budget,
          finance, personnel, training, procurement, automated data
          processing, computer network communications, and general support
          services for the OIG.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 440 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 7 Audit Division regional offices located
throughout the country.

II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.




Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of civil rights
       and civil liberties by employees and officials of the Department of Justice.

      The OIG’s Special Operations Branch in its Investigations Division
manages the OIG’s investigative responsibilities outlined in Section 1001. 2 The
Special Agent in Charge who directs this unit is assisted by three Assistant
Special Agents in Charge (ASAC), one of whom assists on Section 1001
matters, a second who assists on FBI matters, and a third who provides
support on DEA and ATF cases. In addition, five Investigative Specialists
support the unit and divide their time between Section 1001 and
FBI/DEA/ATF responsibilities.

        The Special Operations Branch receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. The complaints are
reviewed by an ASAC who makes a decision concerning the disposition of each
complaint. After review, each complaint alleging a violation within the
investigative jurisdiction of the OIG or another federal agency is entered into an
OIG database by an Investigative Specialist. The more serious civil rights and
civil liberties allegations that relate to actions of DOJ employees or DOJ
contractors normally are assigned to an OIG Investigations Division field office,
where OIG special agents conduct investigations of criminal violations and
administrative misconduct. 3 Some complaints are assigned to the OIG’s
Oversight and Review Division for investigation.

       Given the number of complaints received compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs. In certain referrals, the OIG requires the components to report the
results of their investigations to the OIG. In most cases, the OIG notifies the
complainant of the referral.

   Many complaints received by the OIG involve matters outside our
jurisdiction. The ones that identify a specific issue for investigation are
forwarded to the appropriate investigative entity. For example, complaints of

      2 This unit also is responsible for coordinating the OIG’s review of allegations of

misconduct by employees in the FBI, DEA, and ATF.

        3 The OIG can pursue an allegation either criminally or administratively. Many OIG

investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG is able to continue
the investigation and treat the matter as a case for potential administrative discipline. The
OIG’s ability to handle matters criminally or administratively helps to ensure that a matter can
be pursued administratively even if a prosecutor declines to prosecute a matter criminally.


Office of the Inspector General, U.S. Department of Justice                          Page 3
mistreatment by airport security staff or by the Border Patrol are sent to the
Department of Homeland Security (DHS) OIG. We also have forwarded
complaints to the OIGs of the U.S. Postal Service, the Department of the
Treasury, and the Department of Health and Human Services. In addition, we
have referred complainants to state Departments of Correction that have
jurisdiction over the subject of the complaints. Allegations that relate to the
authority of a DOJ attorney to litigate, investigate, or provide legal advice are
referred to the DOJ Office of Professional Responsibility.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, we discuss the
complaint with the DOJ Civil Rights Division for possible prosecution. In some
cases, the Civil Rights Division accepts the case and requests additional
investigation by either the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution and either the OIG or the appropriate DOJ
internal affairs office reviews the case for possible administrative misconduct.
In addition, we notify the DOJ Civil Rights Division of complaints alleging
violations of federal civil rights statutes by state and local law enforcement or
government officials.

      A. Complaints Processed This Reporting Period

       From January 1, 2010, through June 30, 2010, the period covered by
this report, the OIG processed 1,997 new civil rights or civil liberties
complaints. 4

       Of these complaints, we concluded that 1,815 did not fall within the
OIG’s jurisdiction or did not warrant further investigation. The vast majority
(1,803) of these complaints involved allegations against agencies or entities
outside the DOJ, including other federal agencies, local governments, or private
businesses. When possible, we referred those complaints to the appropriate
entity or advised complainants of the entity with jurisdiction over their
allegations. Some complaints (12) raised allegations that were not suitable for
investigation by the OIG and could not be referred to another agency, generally
because no subject or agency was identified within the complaint.

      We found that 182 of the 1,997 total complaints involved DOJ employees
or DOJ components and included allegations that required further review. The
OIG initiated an investigation of 1 of these complaints. We determined that
175 of these complaints raised management issues that generally were not
related to the OIG’s Section 1001 duties, and we referred these complaints to
DOJ components for appropriate handling. Examples of complaints in this

     4   These complaints include all matters in which the complainant made any mention of a
civil rights or civil liberties violation, even if the allegation was not within the OIG’s jurisdiction.




Office of the Inspector General, U.S. Department of Justice                                Page 4
category included inmates’ allegations about the general conditions at federal
prisons, or complaints that the FBI did not initiate an investigation into
particular allegations.

       The OIG identified 6 complaints as matters that we believed warranted
an investigation to determine if Section 1001-related abuse occurred and we
referred these matters to the BOP for investigation. We discuss the substance
of these 6 complaints in the next section of this report.

       None of the complaints we processed during this reporting period
specifically alleged misconduct by DOJ employees relating to use of a provision
in the Patriot Act.

      The following is a synopsis of the new complaints processed during this
reporting period involving DOJ employees or components and that included
allegations requiring further review:

      Complaints processed:                        1,997

      Unrelated complaints:                        1,815

      Total complaints within OIG’s
      jurisdiction warranting review:                182

      OIG investigation:                                1

      Management issues:                             175

      Possible Section 1001 matters
      warranting investigation:                          6

    B. Section 1001 Cases This Reporting Period

      1. New matters

      As noted above, during this reporting period the OIG opened one new
Section 1001 investigation. Additionally, the OIG referred 6 Section 1001-
related complaints to the BOP for investigation.

   The following is a summary of the new matter opened by the OIG during
this reporting period:

      •   A Muslim inmate alleged that he was assaulted by BOP and U.S.
          Marshal Service staff during his transfer from U.S. Marshal custody.
          The inmate alleged that a BOP employee approached him and
          removed his kufi from his head in a “violent manner” while he was


Office of the Inspector General, U.S. Department of Justice           Page 5
          being taken out of a transport van. The inmate also alleged that the
          BOP employee pushed him, causing him to fall to the ground, and the
          BOP and U.S. Marshal employees then dragged him on the ground
          while he was shackled. A medical assessment of the inmate found
          abrasions to his head, left shoulder, knees, and ankles.

   The following 6 complaints were referred by the OIG to the BOP for
investigation during this reporting period. The investigation of one of these
matters was completed during this period and the investigations of 5 of these
matters are continuing. For each of these referrals, we requested that the BOP
provide the OIG with a copy of its investigative report upon completion of the
investigation.

      Completed investigation:

      •   A Muslim inmate alleged that he and two other inmates were
          approached by a correctional officer who questioned one of the
          inmates about his nationality, the languages he spoke, and the crime
          he committed. When the inmate said he was from Lebanon and that
          he was incarcerated for Material Support to a Designated Terrorist
          Organization, the correctional officer allegedly said, “I don’t believe
          anything you guys say.” According to the complainant, the
          correctional officer then said to the third inmate, “What are we going
          to do with your terrorist friends?” BOP investigators interviewed the
          correctional officer and he admitted that he asked the inmate where
          he was from, what languages he spoke, where Lebanon was, and if he
          sided with Israel. The correctional officer denied making any
          derogatory statements to any of the three inmates. The BOP has
          completed its investigation and this matter is pending disciplinary
          action.

      Continuing investigations:

          •   A Muslim inmate alleged that a BOP chaplain denied him and a
              visitor access to religious meals, and prevented Muslims from
              obeying Islamic injunctions by forcing them to throw away food on
              a holy day. The inmate also alleged that the chaplain gives
              preferential treatment to Jews and Christians.

          •   A Muslim inmate alleged that two BOP chaplains have exhibited a
              pattern of incompetence and bias when dealing with Muslim
              inmates and Islamic issues. The inmate alleged that the chaplains
              issued memoranda restricting the size of prayer groups and the
              duration of, and location of daily Muslim prayers. The inmate also
              alleged that BOP staff monitors Muslim religious services and
              classes in a restrictive manner.


Office of the Inspector General, U.S. Department of Justice             Page 6
         •   A Muslim inmate alleged that a BOP correctional officer ordered
             him to remove his religious headwear when he entered the food
             service area. The inmate said that when he told the correctional
             officer that policy permitted him to wear the religious headwear in
             the food service area, the correctional officer ordered that the
             inmate be taken to the Special Housing Unit (SHU). The inmate
             also alleged that when he was released from the SHU later that
             day, he was taken to the correctional officer’s office, where the
             correctional officer “assaulted” him with profanity. The inmate
             further alleged that the correctional officer lied on an official record
             in response to the inmate’s complaint.

         •   A Muslim inmate alleged that a BOP chaplain attempted to deny all
             Sunni Muslim inmates the right to pray in the prison chapel,
             issued a memorandum stating when Sunni Muslim inmates could
             pray, has repeatedly shown her dislike of Sunni Muslim inmates,
             and used her official position to oppress Sunni Muslim inmates.

         •   A BOP employee alleged that an inmate told him that BOP staff
             directed him to stop helping Islamic inmates, “because we don’t
             help terrorists.”

      2. Continuing OIG investigations and cases referred to BOP during
         previous reporting periods that the OIG continues to monitor

     The following is a summary of an ongoing OIG investigation that was
opened during a prior reporting period.

         •   The OIG is investigating a Muslim inmate’s allegations that two
             BOP staff members told him that they and others hated him
             because he is Arab and Muslim, and that they made crude
             statements to him relating to his religious articles. The inmate
             alleged further that BOP correctional officers directed other
             inmates to attack him and that he did not receive timely medical
             treatment for injuries resulting from the assault. In addition, the
             inmate alleged that several prison officials threatened him in an
             effort to force him to withdraw these complaints. Other allegations
             made by the inmate include that his mail was withheld from him
             and that he was denied a transfer to another facility.

      The OIG referred the following 3 complaints to the BOP for investigation
during a prior reporting period. The investigations of these 3 matters continue.
For each of these referrals, we requested that the BOP provide the OIG with a
copy of its investigative report upon completion of the investigation.



Office of the Inspector General, U.S. Department of Justice                Page 7
        •    An inmate who is originally from Pakistan alleged that he has been
             discriminated against by BOP employees because of his race and
             religion. The inmate alleged that he has been transferred several
             times and unfairly placed in the SHU, where he was harassed by
             correctional officers, did not receive timely medical treatment, had
             his legal documents confiscated, and was forced to sleep on dirty
             bed linens.

        •    A Muslim inmate alleged that a BOP staff member removed
             personal items from his display board and threw them away.
             According to the complainant, when the inmate questioned the
             correctional officer about the items, the correctional officer told him
             that they were gone. The inmate reported the matter to a unit
             manager, and he was told that nothing could be done.

         •   An inmate alleged that when he asked the facility’s chaplain to
             order religious materials for the Muslim community the chaplain
             told him that there was no money in the budget for such items.
             The inmate alleged that when he sent an e-mail to the associate
             warden requesting the religious services budget, he was accused of
             sending a threatening e-mail and told that he could be placed in
             solitary confinement or transferred to a different facility.

      3. Previously opened investigations that were closed during this
         reporting period

        BOP completed investigations of 3 Section 1001- related matters during
this reporting period that had been referred by the OIG in prior periods. For
each of these referrals, we requested that the BOP provide the OIG with a copy
of its investigative report.

        •    An inmate reported that he sent a complaint to the Department of
             Health and Human Services regarding his concerns about the
             public health and safety of inmates at a BOP facility. The inmate
             alleged that subsequent to his sending that complaint, he was fired
             from his job at the BOP facility where he was housed, subjected to a
             strip search without cause, sexually harassed, humiliated, and had
             his property confiscated by prison officials without their following
             proper procedures. The inmate alleged he was mistreated because
             he is Muslim.

             The BOP conducted an investigation of the inmate’s allegations.
             The investigation determined that the inmate was fired from his job
             in the vegetable preparation area of the facility’s Food Service
             because he attempted to steal food. A correctional officer
             interviewed during the investigation told the BOP that he conducted


Office of the Inspector General, U.S. Department of Justice               Page 8
             a pat search of the inmate and found vegetables stuffed in the
             inmate’s pants. Other inmates were also caught attempting to steal
             food, and as a result all inmates working in the vegetable
             preparation area at that time were removed from that assignment.
             The complainant was transferred to the dish room where he still
             works.

             The BOP interviewed the employee who complainant alleged had
             sexually harassed and humiliated him. The employee denied the
             allegation and no evidence supported the complainant’s claim.
             When interviewed by the BOP, the complainant was unable to
             identify the property he alleged was confiscated from him. In
             addition, the correctional counselor whom the inmate alleged took
             his property denied taking any property from the inmate. The BOP
             concluded that the allegations were unsubstantiated.

         •   A BOP employee sent an e-mail to other employees via the BOP’s
             network discouraging BOP staff from purchasing a U.S. postage
             stamp that allegedly recognized Islam. Another BOP employee
             added his comments and forwarded the message to approximately
             200 individuals, including BOP staff and management officials.
             The BOP interviewed both employees. They admitted that they
             sent and forwarded the e-mail message. One of the employees who
             forwarded the message said he did so by mistake. BOP informed
             us that this matter is pending disciplinary action.

         •   A BOP employee forwarded an e-mail via the BOP’s network that
             made derogatory remarks about Muslims. The BOP interviewed
             the employee and he admitted to sending the e-mail. This matter is
             pending disciplinary action.

IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. The OIG has initiated or continued several
such special reviews that relate to the OIG’s duties under Section 1001. These
reviews are discussed in this section of the report.

      A. Review of the FBI’s Activities Under Section 702 of the Foreign
         Intelligence Surveillance Act Amendments Act of 2008

      Section 702 of the Foreign Intelligence Surveillance Act (FISA)
Amendments Act of 2008 (Act) authorizes targeting non-U.S. persons
reasonably believed to be outside the United States to acquire foreign


Office of the Inspector General, U.S. Department of Justice              Page 9
intelligence information. As required by the Act, the OIG is examining the
number of disseminated FBI intelligence reports containing a reference to a
U.S. person identity, the number of U.S. person identities subsequently
disseminated in response to requests for identities not referred to by name or
title in the original reporting, the number of targets later determined to be
located in the United States, and whether communications of such targets were
reviewed. In addition, the OIG is reviewing the FBI’s compliance with the
targeting and minimization procedures required under the Act.

      B.   Review of the FBI’s Investigation of Certain Domestic Advocacy
           Groups

       The OIG is completing its review of allegations that the FBI targeted
certain domestic advocacy groups for scrutiny based upon their exercise of
rights guaranteed under the First Amendment to the United States
Constitution. The review examined allegations regarding the FBI’s
investigation, and the predication for any such investigation, of groups
including the Thomas Merton Center, Greenpeace, and People for the Ethical
Treatment of Animals (PETA).

      C.   Review of the Department’s Use of Material Witness Warrants

       The OIG is reviewing the Department’s use of the material witness
warrant statute, 18 U.S.C. 3144. The review is examining the Department’s
controls over the use of material witness warrants, trends in the use of
material witness warrants over time, and the Department’s treatment of
material witnesses in national security cases, including issues such as length
of detention, conditions of confinement, and access to counsel.

      D.   Review of the FBI’s Use of National Security Letters and Section
           215 Orders from 2007 through 2009

       The OIG recently initiated another review examining the FBI’s use of
national security letters (NSLs) and Section 215 orders for business records.
Among other issues, our review will assess the FBI’s progress in responding to
the OIG’s recommendations in prior OIG reports that examined the FBI’s use of
these authorities. Our review will also evaluate the automated system the FBI
implemented to generate and track NSLs in response to the deficiencies
identified in our prior reports, the number of NSLs issued and 215 applications
filed by the FBI from 2007 through 2009, and any improper or illegal uses of
these authorities. In addition, the review will examine the FBI’s use of its pen
register, and trap and trace authority under FISA.




Office of the Inspector General, U.S. Department of Justice           Page 10
V. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to:

      Submit to the Committee on the Judiciary of the House of Representatives
      and the Committee on the Judiciary of the Senate on a semi-annual basis
      a report…including a description of the use of funds appropriations used to
      carry out this subsection.

       During this reporting period, the OIG spent approximately $1,196,619 in
personnel costs, $5,886 in travel costs (for investigators to conduct interviews),
and $392 in miscellaneous costs, for a total of $1,202,897 to implement its
responsibilities under Section 1001. The total personnel and travel costs
reflect the time and funds spent by OIG special agents, inspectors, and
attorneys who have worked directly on investigating Section 1001-related
complaints, conducting special reviews, and implementing the OIG’s
responsibilities under Section 1001.




Office of the Inspector General, U.S. Department of Justice             Page 11
